March 28, 2011


Memorandum for:               The Federal Co-Chair
                              ARC Executive Director

Subject:                      OIG Report 11-03
                              Fiscal Year 2010 Financial Statement Audit


The enclosed report presents the results of the audit of the Commission’s financial statements for
the fiscal year ended September 30, 2010. The report should be read in conjunction with the
Commission’s financial statements and notes to fully understand the context of the information
contained therein.

The Appalachian Regional Commission (ARC) contracted with the independent certified public
accounting firm of Martin & Wall (M&W) to audit the financial statements of the Commission
as of and for the fiscal year ended September 30, 2010. The contract required that the audit be
conducted in accordance with U.S. generally accepted government auditing standards and OMB
audit guidance. ARC’s Office of Inspector General monitored audit activities to help ensure audit
quality.

The following results were noted from M&W’s audit of ARCs financial statements for the fiscal
year ended September 30, 2010.

   M&W expressed an unqualified opinion on ARC’s financial statements and reported that
    they were presented fairly in all material respects, in accordance with U.S. generally accepted
    accounting principles.

   M&W was not contracted for and did not provide an opinion on the effectiveness of ARC’s
    internal controls. However, M&W did state that they did not identify any deficiencies in
    internal control that were considered to be material weaknesses, relative to their expressing
    an opinion on ARC’s financial statements.

   No significant deficiencies were reported.

   M&W did not express an opinion on compliance with laws and regulations, but noted no
    instances of non-compliance with laws or regulations required to be reported under the
    provisions of OMB audit guidance.
In connection with the contract, we reviewed Martin & Wall’s report and related documentation
and inquired of its representatives. Our involvement in the audit process consisted of monitoring
of audit activities, reviewing auditor independence and qualifications, attending meetings,
participating in discussions, and reviewing audit planning and conclusion workpapers and
reports. Our review, as differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express, and we do not express,
opinions on the Appalachian Regional Commission’s financial statements, conclusions about the
effectiveness of internal control, or conclusions about compliance with laws and regulations.
Martin & Wall is responsible for the attached auditor’s report dated February 25, 2011 and the
conclusions expressed in the report. However, our review disclosed no instances where Martin
& Wall did not comply, in all material respects, with U.S. generally accepted government
auditing standards.




Clifford H. Jennings
Inspector General


Attachment

cc: Director, Finance and Administration Division
FINANCIAL STATEMENTS
As of and for the Years Ended September 30, 2010 and 2009

With Report of Independent Auditors
                                           TABLE OF CONTENTS


Independent auditors' report…................................................................................ 1-4

Balance sheets……………….…............................................................................ 5

Statements of net cost ………………………........................................................ 6

Statements of changes in net position..................................................................... 7-8

Statements of budgetary resources…...................................................................... 9

Notes to financial statements................................................................................... 10-29

Appendix A: Appalachian Regional Commission Comments on Draft Audit Report
                          Tel. 202.332.3566 · Fax 202.332.3672 · www.martinwallcpa.com




                                 Independent Auditors’ Report


Inspector General, Commission Members and Executive Director
Appalachian Regional Commission
Washington, DC

In accordance with the Accountability of Tax Dollars Act of 2002, we are responsible for
conducting audits of the Appalachian Regional Commission. We have audited the
accompanying balance sheet of the Appalachian Regional Commission as of September 30, 2010
and the related statements of net cost, changes in net position, and budgetary resources for the
year then ended. Information presented as of and for the year ended September 30, 2009 was
audited by a prior auditor and is presented for comparison purposes. See prior audit report dated
May 7, 2010 for details.

The objective of our audit was to express an opinion on the fair presentation of these financial
statements. In connection with our fiscal year 2010 audit, we also considered the Appalachian
Regional Commission’s internal control over financial reporting and tested the Appalachian
Regional Commission’s compliance with selected provisions of applicable laws and regulations
that could have a direct and material effect on these financial statements.

Summary

In our audit of the Appalachian Regional Commission for the fiscal year ended September 30,
2010, we found:

   •   the financial statements are presented fairly, in all material respects, in conformity with
       U.S. generally accepted accounting principles,
   •   no material weaknesses in internal control over financial reporting (including
       safeguarding assets) and compliance with laws and regulations,
   •   no reportable noncompliance with laws and regulations we tested.

The following sections discuss our opinion on the Commission’s financial statements; our
consideration of the Commission’s internal controls over financial reporting; our tests of the
Commission’s compliance with certain provisions of applicable laws, regulations, contracts and
grant agreements; and management’s and our responsibilities.




                      1633 Q Street, NW · Suite 230 · Washington, DC 20009
Opinion on Financial Statements

We have audited the accompanying balance sheet of the Appalachian Regional Commission as
of September 30, 2010 and the related statements of net cost, changes in net position, and
budgetary resources for the year then ended.

In our opinion, the financial statements referred to above, including the accompanying notes,
present fairly, in all material respects, the financial position of the Appalachian Regional
Commission, as of September 30, 2010, and its net costs, changes in net position, and budgetary
resources for the years then ended, in conformity with U.S. generally accepted accounting
principles. Information presented as of and for the year ended September 30, 2009 was audited
by a prior auditor and is presented for comparison purposes. See prior audit report dated May 7,
2010 for details.

The information in the Management’s Discussion and Analysis, Required Supplementary
Stewardship Information and Required Supplementary Information sections is not a required part
of the financial statements, but is supplemental information required by U.S. generally accepted
accounting principles. We have applied certain limited procedures, which consisted of
principally inquiries of management regarding the methods of measurement and presentation of
this information. However, we did not audit this information and, accordingly, we express no
opinion on it.

Internal Control Over Financial Reporting

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements , fraud or
noncompliance in amounts that would be material to the financial statements will not be
prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section and was not designed to identify all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies, or
material weaknesses. In our fiscal year 2010 audit, we did not identify any deficiencies in
internal control over financial reporting that we consider to be material weaknesses, as defined
above.

We noted certain additional matters that we reported to the Commission’s management
addressing internal control matters.




                                                 2
Compliance and Other Matters

The results of our tests of compliance as described in the Responsibilities section of this report
disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04, as amended.

Responsibilities

Management Responsibilities: Appalachian Regional Commission’s management is
responsible for (1) preparing the financial statements in conformity with U.S. generally accepted
accounting principles, (2) establishing and maintaining effective internal control, (3) complying
with laws, regulations, contracts and grant agreements applicable to the Commission.

Auditor’s Responsibilities: Our responsibility is to express an opinion on the fiscal year 2010
financial statements of the Appalachian Regional Commission based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-
04, as amended. Those standards and OMB Bulletin 07-04, as amended, require that we plan
and perform the audit to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the Appalachian Regional
Commission’s internal control over financial reporting. Accordingly, we express no such
opinion.

An audit also includes:

   •   Examining, on a test basis, evidence supporting the amounts and disclosures in the
       financial statements;
   •   Assessing the accounting principles used and significant estimates made by management;
   •   Evaluating the overall financial statement presentation;
   •   Obtaining an understanding of the entity and its operations, including its internal control
       related to financial reporting (including safeguarding assets), and compliance with laws
       and regulations (including execution of transactions in accordance with budget authority);
   •   Considering the design of the process for evaluating and reporting on internal control;
   •   Testing compliance with selected provisions of laws, regulations, grants and controls
       applicable to the Commission that could have a direct and material effect on the financial
       statements.

We believe that our audit provides a reasonable basis for our opinion.




                                                 3
In planning and performing our fiscal year 2010 audit, we considered the Appalachian Regional
Commission’s internal control over financial reporting by obtaining an understanding of the
Commission’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our
auditing procedures for the purpose of expressing an opinion on the financial statement, but not
for the purpose of expressing an opinion on the effectiveness of the Commission’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness
of the Commission’s internal control over financial reporting. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. Because of inherent limitations in internal control, misstatements due to
error or fraud, losses, or noncompliance may nevertheless occur and not be detected. We also
caution that projecting our evaluation to future periods is subject to the risk that controls may
become inadequate because of changes in conditions or that the degree of compliance with
controls may deteriorate. In addition, we caution that our internal control testing may not be
sufficient for other purposes.

As part of obtaining reasonable assurance about whether the Appalachian Regional
Commission’s fiscal year 2010 financial statements are free of material misstatement, we
performed tests of the Commission’s compliance with certain provisions of laws, regulations,
contracts and grant agreements, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws
and regulations specified in OMB Bulletin No. 07-04, as amended. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws, regulations, contracts and grant agreements applicable to the Commission.
However, providing an opinion on compliance with laws, regulations, contracts and grant
agreements was not an objective of our audit, and accordingly, we do not express such an
opinion. We caution that noncompliance may occur and not be detected by these tests and that
such testing may not be sufficient for other purposes.

Agency Comments and Our Evaluation

In commenting on a draft of this report (see Appendix A), the Appalachian Regional
Commission concurred with the facts and conclusions in our report.

Use and Distribution of Report

This report is intended sole for the information and use of the Appalachian Regional
Commission’s management, Office of Inspector General, Commissioners, U.S. Office of
Management and Budget, the U.S. Government Accountability Office, and the U.S. Congress
and is not intended to be and should not be used by anyone other than these specified parties.




Washington, DC
February 25, 2011


                                                4
                                            APPALACHIAN REGIONAL COMMISSION

                                                              BALANCE SHEETS
                                                    As Of September 30, 2010 and 2009


                                                                                                         2010                2009

Assets:
  Intragovernmental:
   Fund Balance With Treasury                                                 (Notes 1 & 2)        $    168,564,095    $ 161,967,586
   Advances                                                                   (Notes 1 & 3)              13,756,610       12,329,479
  Total Intragovernmental                                                                               182,320,705      174,297,065

   Cash in commercial institutions                                                 (Note 1)                   79,028            31,012
   Equipment, Net                                                                  (Note 1)
   Advances                                                                   (Notes 1 & 3)              34,932,837       29,767,568
Total Assets                                                                                       $    217,332,571    $ 204,095,645



Liabilities:                                                                       (Note 4)
   Intragovernmental:
      Advances                                                           (Notes 1, 4 & 5)          $                   $      626,729
      Other                                                                (Notes 4 & 5)                     106,193
   Total Intragovernmental                                                                                   106,193          626,729

    Accounts Payable                                                       (Notes 1 & 4)                   4,063,127         3,460,229
    Other                                                                (Notes 1, 4 & 5)                  1,852,971         1,598,157
    Total Liabilities                                                                                      6,022,292         5,685,115


Net Position:
  Unexpended Appropriations - Other Funds                                                               133,589,444        117,867,086
  Cumulative Results of Operations - Earmarked Funds                               (Note 8)                 843,602            981,356
  Cumulative Results of Operations - Other Funds                                                         76,877,234         79,562,088
  Total Net Position                                                                                    211,310,279        198,410,530

Total Liabilities and Net Position                                                                 $    217,332,571    $ 204,095,645

*Amounts may be off by a dollar due to rounding.




                                      The accompanying notes are an integral part of these financial statements.

                                                                          5
                              APPALACHIAN REGIONAL COMMISSION

                                           STATEMENTS OF NET COST
                            For The Year Ended September 30, 2010 and 2009


                                                                                   2010                 2009

Program Costs:
   Program A:
      Gross Costs                                              (Note 9)       $ 68,738,122          $   71,638,025
      Less: Earned Revenue                                     (Note 1)          5,520,729               3,788,282
      Net Program Costs                                                         63,217,393              67,849,743

Net Cost of Operations                                                        $ 63,217,393          $   67,849,743
*Amounts may be off by a dollar due to rounding.




                       The accompanying notes are an integral part of these financial statements.

                                                           6
                                              APPALACHIAN REGIONAL COMMISSION


                                               STATEMENT OF CHANGES IN NET POSITION
                                                   For The Year Ended September 30, 2010

                                                                                                                2010


                                                                                     Earmarked                                  Consolidated
                                                                                       Funds            All Other Funds            Total

Cumulative Results of Operations:
Beginning Balances                                                               $          981,354     $      79,562,090       $    80,543,444

Budgetary Financing Sources:
  Appropriations Used                                                                                          60,277,642            60,277,642
  Transfers-In/Out Without Reimbursement                                               3,979,000               (3,979,000)

Other Financing Resources (Non-Exchange):
   Imputed Financing                                                                                              117,143               117,143
Total Financing Sources                                                                3,979,000               56,415,785            60,394,785
Net Cost of Operations (+/-)                                                           4,116,753               59,100,641            63,217,393
Net Change                                                                              (137,753)              (2,684,855)           (2,822,608)

Cumulative Results of Operations                                                 $          843,602     $      76,877,234       $    77,720,836

Unexpended Appropriations:
Beginning Balances                                                               $                      $    117,867,085        $   117,867,085

Budgetary Financing Sources:
   Appropriations Received                                                                                    76,000,000             76,000,000
   Appropriations Used                                                                                       (60,277,642)           (60,277,642)
   Total Budgetary Financing Sources                                                                          15,722,358             15,722,358
Total Unexpended Appropriations                                                                              133,589,444            133,589,444

Net Position                                                                     $          843,602     $    210,466,678        $   211,310,279
*Amounts may be off by a dollar due to rounding.




                                                   The accompanying notes are an integral part of these financial statements.

                                                                                        7
                                          APPALACHIAN REGIONAL COMMISSION


                                            STATEMENT OF CHANGES IN NET POSITION
                                               For The Year Ended September 30, 2009

                                                                                                          2009


                                                                               Earmarked                                   Consolidated
                                                                                 Funds            All Other Funds             Total
Cumulative Results of Operations:
Beginning Balances                                                         $      (398,346)       $      83,414,679        $    83,016,333

Budgetary Financing Sources:
  Appropriations Used                                                                                    65,273,290             65,273,290
  Transfers-In/Out Without Reimbursement                                         3,762,000               (3,762,000)

Other Financing Resources (Non-Exchange):
   Imputed Financing                                                                                        103,564                103,564
Total Financing Sources                                                          3,762,000               61,614,854             65,376,854
Net Cost of Operations (+/-)                                                     2,382,298               65,467,445             67,849,743
Net Change                                                                       1,379,702               (3,852,591)            (2,472,889)
Cumulative Results of Operations                                           $       981,356        $      79,562,088        $    80,543,444


Unexpended Appropriations:
Beginning Balances                                                         $                      $    108,140,376         $   108,140,376

Budgetary Financing Sources:
   Appropriations Received                                                                              75,000,000              75,000,000
   Appropriations Used                                                                                 (65,273,290)            (65,273,290)
   Total Budgetary Financing Sources                                                                     9,726,710               9,726,710
Total Unexpended Appropriations                                                                        117,867,086             117,867,086

Net Position                                                               $       981,356        $    197,429,174         $   198,410,530
*Amounts may be off by a dollar due to rounding.




                                              The accompanying notes are an integral part of these financial statements.

                                                                                  8
                                 APPALACHIAN REGIONAL COMMISSION

                                   STATEMENTS OF BUDGETARY RESOURCES
                               For The Year Ended September 30, 2010 and 2009


                                                                                         2010               2009


                                                                                      Budgetary          Budgetary

Budgetary Resources:
Unobligated Balance:
  Beginning of Period                                                             $      29,357,204     $ 28,796,944
Recoveries of Prior Year Obligations                                                      5,366,451        8,242,388

Budget Authority:
  Appropriations Received                                                                83,958,000        82,524,000
  Earned
     Collected                                                                            1,679,148         1,990,031
  Change in Unfilled Customer Orders (+/-)
     Advance Received                                                                      (606,246)
  Subtotal                                                                        $      85,030,903     $ 84,514,031

Total Budgetary Resources                                                         $    119,754,557      $ 121,553,363



Status of Budgetary Resources:
Obligations Incurred
   Direct                                                   (Note 10)             $      91,988,758     $ 92,196,158
   Subtotal                                                                       $      91,988,758     $ 92,196,158
Unobligated Balances
   Apportioned                                                                          25,888,467         26,925,233
   Exempt from Apportionment                                                             1,856,850
   Subtotal                                                                       $     27,745,316      $ 26,925,233
Unobligated Balances - Not Available                                                        20,483          2,431,972
Total Status of Budgetary Resources                                               $    119,754,557      $ 121,553,363



Change in Obligated Balances:
Obligated Balance, Net:
  Unpaid Obligations, Brought Forward, October 1                                  $    132,572,078      $ 126,281,117
   Total, Unpaid Obligated Balance, Brought Forward, Net                          $    132,572,078      $ 126,281,117
Obligations Incurred                                                                    91,988,758         92,196,158
Gross Outlays (-)                                                                      (78,507,650)       (77,662,809)
Recoveries of Prior-Year Unpaid Obligations, Actual (-)                                 (5,366,451)        (8,242,388)
Obligated Balance, Net, End of Period:
    Unpaid Obligations (+)                      (Note 11)                              140,686,735        132,572,078
   Total, Unpaid Obligated Balance, Net, End of Period                            $    140,686,735      $ 132,572,078

Net Outlays:
Gross Outlays (+)                                                                        78,507,650       77,662,809
Offsetting Collections (-)                                                               (1,072,903)      (1,990,032)
Less: Distributed Offsetting Receipts                                                     7,958,000        7,550,281
Net Outlays                                                                       $      69,476,747     $ 68,122,496
*Amounts may be off by a dollar due to rounding.




                           The accompanying notes are an integral part of these financial statements.

                                                               9
                                Appalachian Regional Commission
                                  Notes to Financial Statements
                                  September 30, 2010 and 2009

NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Overview of Reporting Entity

The Appalachian Regional Commission (ARC) was established under the Appalachian Regional
Development Act of 1965, as amended. ARC is a regional development agency designed to
function as a federal, state, and local partnership. ARC is not a federal executive branch agency
(as defined in Title 5 and 31 of the United States Code and by the Department of Justice).

Commission members are comprised of a federal member (Federal Co-Chair), who is appointed
by the President of the United States, and the governors of each of the 13 states in the
Appalachian Region. The state members elect a State Co-Chair from their members. ARC has
an Executive Director and Program and Administrative Offices that implement the policies and
procedures established by the Federal and State Co-Chairs. ARC personnel are comprised of
both federal and non-federal employees.

ARC supports economic and social development in the Appalachian Region. The Appalachian
Region is a 205,000 square mile region from Southern New York to Northern Mississippi. The
ARC programs affect 420 counties located in 13 states including all of West Virginia and parts
of Alabama, Georgia, Kentucky, Maryland, Mississippi, New York, North Carolina, Ohio,
Pennsylvania, South Carolina, Tennessee, and Virginia.

Basis of Presentation

These financial statements have been prepared from the accounting records of ARC in
accordance with generally accepted accounting principles (GAAP), and the form and content for
entity financial statements specified by the Office of Management and Budget (OMB) in OMB
Circular No. A-136. GAAP for Federal entities are standards prescribed by the Federal
Accounting Standards Advisory Board (FASAB), which has been designated the official
accounting standards-setting body for the Federal Government by the American Institute of
Certified Public Accountants.

OMB Circular No. A-136 requires agencies to prepare principal statements, which include a
Balance Sheet, Statement of Net Cost, Statement of Changes in Net Position, and a Statement of
Budgetary Resources. The Balance Sheet presents, as of September 30, 2010, amounts of future
economic benefits owned or managed by ARC (assets), amounts owed by ARC (liabilities), and
amounts, which comprise the difference (net position). The Statement of Net Cost reports the
full cost of the program, both direct and indirect costs of the output, and the costs of identifiable
supporting services provided by other segments within ARC and other reporting entities. The
Statement of Budgetary Resources reports an agency’s budgetary activity.




                                                 10
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

Basis of Accounting

Transactions are recorded on the accrual accounting basis in accordance with general
government practice. Under the accrual basis of accounting, revenues are recognized when
earned, and expenses are recognized when a liability is incurred, without regard to receipt or
payment of cash.

Use of Estimates

The preparation of financial statements requires management to make estimates and assumptions
that affect the reported amounts of assets and liabilities, the disclosure of contingent assets and
liabilities at the date of the financial statements, and the reported amounts of revenues and
expenses during the reporting period. Actual results may differ from those estimates.

Fund Accounting Structure

ARC's financial activities are accounted for by utilizing individual funds and fund accounts in
reporting to the U.S. Treasury and the Office of Management and Budget. For financial
statement purposes, these funds are classified as an earmarked fund and all other funds.
Earmarked funds are financed by specifically identified revenues often supplemented by other
financing sources which remain available over time. These specifically identified revenues and
other financing sources are required by statute to be used for designated activities, benefits, or
purposes and must be accounted for separately from the Government's general revenues. ARC’s
earmarked fund and all other funds are identified as follows:

   •   Earmarked Fund - A trust fund was established by the U.S. Treasury under the authority
       of the Appalachian Regional Development Act of 1965, to receive, hold, invest, and
       disburse monies collected to cover the administrative expenses of ARC. The
       administrative expenses are paid equally by the federal government and the states in the
       Appalachian Region as determined annually by ARC. The federal contributions are
       accounted for as an earmark under Statement of Federal Financial Accounting Standards
       (SFFAS) 27.

   •   All Other Funds - All other funds consist of area development program funds and funding
       for the Office of the Federal Co-Chair and the Office of Inspector General.




                                                11
                              Appalachian Regional Commission
                                Notes to Financial Statements
                                September 30, 2010 and 2009

Budgets and Budgetary Accounting

ARC follows standard federal budgetary accounting policies and practices in accordance with
OMB Circular No. A-11, “Preparation, Submission, and Execution of the Budget,” dated July
2010. Budgetary accounting facilitates compliance with legal constraints and controls over the
use of federal funds. Each year, Congress provides ARC no-year appropriations to incur
obligations in support of ARC programs. For Fiscal Year (FY) 2010 and 2009, ARC is
accountable for apportionment of no-year funds and no-year fund carryover. ARC recognizes
budgetary resources as assets when cash (funds held by Treasury) is made available through
apportionments.

Revenue and Other Financing Sources

       Appropriations

ARC programs and activities are funded primarily through annual appropriations from Congress
that may be used, within statutory limits, for operating and capital expenditures. Historically,
appropriations have been definite no-year appropriations, without fiscal year limitation, made
available until expended. Because of the no-year status of the funds, unobligated amounts are
not returned to the U.S. Treasury.

       Earned Revenues

ARC receives earned revenues that are presented on the statement of net cost. Earned revenues
are recognized by ARC to the extent reimbursements are payable from public, as a result of costs
incurred or services performed on the public’s behalf. Earned revenues are derived from the
following sources:

   •   ARC receives contributions from the 13 states in the Appalachian Region to pay
       administrative expenses (see discussion of earmarked funds and trust fund for more
       details). These are recorded as earned revenues on the statement of net cost. From time
       to time, there are also minor amounts of earned revenues from conference fees or credit
       card refunds. Earned revenues are recognized by ARC to the extent reimbursements are
       payable from public, as a result of costs incurred or services performed on the public’s
       behalf.
   •   ARC receives funds from the Center for Disease Control for a diabetes prevention
       program.
   •   From time to time, there are also minor amounts of earned revenues from conference fees
       or credit card refunds.

       Transfer-In Without Reimbursement

   •   ARC receives funds from the Department of Transportation for the Appalachian
       Development Highway System. ARC is a child account to DOT for this purpose.



                                               12
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

   Imputed Financing From Costs Absorbed by Others

Other financing sources for ARC consists of imputed financing sources which are costs financed
by other Federal entities on behalf of ARC, as required by Statement of Federal Financial
Accounting Standard (SFFAS) No. 5, Accounting for Liabilities of the Federal Government. In
certain instances, operating costs of the ARC are paid out of funds appropriated to other federal
agencies. In accordance with GAAP, as outlined in guidance issued by the Office of
Management and Budget (OMB), all expenses of a federal entity should be reported by that
agency whether or not the agency will ultimately pay these expenses. Amounts for certain
expenses of ARC, which will be paid by other federal agencies, are recorded in the Statement of
Net Cost. A related amount is recognized in the Statement of Changes in Net Position as an
imputed financing source. ARC records imputed expense and financing sources for employee
retirement, insurance, and health benefit costs, which are paid by the Office of Personnel
Management (OPM).

Fund Balance with U.S. Treasury

ARC's cash receipts and disbursements are processed by the U.S. Treasury. Funds with U.S.
Treasury represent obligated and unobligated no-year funds available to finance allowable
current and future expenditures.

Cash in Commercial Institutions

ARC uses commercial bank accounts to accommodate collections and payments that cannot be
processed by the U.S. Treasury. Cash in commercial institutions totaled $79,028 and $31,012 at
September 30, 2010 and 2009, respectively.

Advances

ARC advances funds to other federal agencies for work performed on its behalf under various
reimbursable agreements. These intra-governmental advances are recorded as an asset, which is
reduced when actual expenditures or the accrual of unreported expenditures are recorded.

ARC also has advances made to grantees. These primarily include revolving loan fund payments
to provide pools of funds to be made available to grantees to create and retain jobs. These
advance payments are recorded by ARC as an asset, which is reduced if the revolving fund is
terminated.




                                               13
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

Property & Equipment

Property, plant, and equipment (PP&E) have been defined in the Federal Government as tangible
items owned by the Federal Government and having an expected useful life of greater than two
years. ARC’s property & equipment is recorded at acquisition cost. Depreciation is computed
using the straight-line method over the estimated useful lives of the assets. The capitalization
threshold is $35,000, effective June 15, 2010. Prior to that, the capitalization threshold was
$50,000. This change in accounting policy does not affect balance sheet accounts for property
and equipment. All property and equipment was fully depreciated at September 30, 2010 and
2009.

Liabilities

Liabilities represent probable amounts to be paid by ARC as a result of past transactions.
Liabilities covered by budgetary or other resources are those for which Congress has
appropriated funds or funding is otherwise available to pay amounts due.

Liabilities not covered by budgetary or other resources represent amounts owed in excess of
available congressionally appropriated funds or other amounts. The liquidation of liabilities not
covered by budgetary or other resources is dependent on future Congressional appropriations or
other funding.

Accounts Payable

Accounts payable consists of amounts owed to grantees and amounts owed to federal and
nonfederal entities for goods and services received by ARC.

Benefits Due and Payable:

       Unfunded Annual Leave

Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
balance in the accrued leave account is adjusted to reflect current pay rates. To the extent current
or prior year appropriations are not available to fund annual leave earned but not taken, funding
will be obtained from future financing sources. Sick leave and other types of non-vested leave
are expensed as taken.

       Retirement Benefits

ARC’s federal and certain non-federal employees participate in the Civil Service Retirement
System (CSRS) or the Federal Employees’ Retirement System (FERS). FERS was established by
the enactment of Public Law 99-335. Pursuant to this law, FERS and the Social Security and the
Thrift Savings Plan program automatically cover most employees hired after December 31,
1983. Employees hired before January 1, 1984 elected to participate in the FERS and Social
Security or to remain in CSRS.


                                                14
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009


All federal and certain non-federal employees are eligible to contribute to the Thrift Savings Plan
(TSP). For those employees participating in the FERS, a TSP account is automatically
established and ARC makes a mandatory one percent contribution to this account. In addition,
ARC makes matching contributions, ranging from one to four percent, for FERS eligible
employees who contribute to their TSP accounts. Matching contributions are not made to the
TSP accounts established by CSRS employees. FERS employees and certain CSRS
reinstatement employees are eligible to participate in the Social Security program after
retirement. In these instances, ARC remits the employer’s share of the required contribution.

The Office of Personnel Management (OPM) actuaries determine pension cost factors by
calculating the value of pension benefits expected to be paid in the future and communicate these
factors to ARC. OPM also provides information regarding the full cost of health and life
insurance benefits. Reporting amounts such as plan assets, accumulated plan benefits, and
related unfunded liabilities, if any, is the responsibility of OPM.

ARC also has a Defined Benefit Pension Plan which was open to all employees not participating
in CSRS and FERS. ARC uses an October 1 measurement date for its plan.

In February 2000 ARC established a 401(k) retirement plan that mirrors FERS. The plan covers
substantially all non-federal employees. Employees are eligible to participate in and are fully
vested in the plan upon employment. ARC’s funding policy is to make a 3% contribution of total
salary and a matching 3% of the first 50% of the participants’ contributions to the plan up to 6%
of total salary.

Net Position

Net position is the residual difference between assets and liabilities and is comprised of
unexpended appropriations and cumulative results of operations. Unexpended appropriations
represent the amount of unobligated and unexpended budget authority. Unobligated balances are
the amount of appropriations or other authority remaining after deducting the cumulative
obligations from the amount available for obligation. The cumulative results of operations are the
net results of ARC’s operations since inception.

Net Cost of Operations

Earned revenues arise from the collection of state contributions and are deducted from the full
cost of ARC's major programs to arrive at net program cost. Earned revenues are recognized by
ARC to the extent reimbursements are payable from the public, as a result of costs incurred or
services performed on the public’s behalf.




                                                15
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

Budgetary Financing Sources

Budgetary financing sources other than earned revenues provide funding for ARC’s net cost of
operations and are reported on the Statement of Changes in Net Position. These financing
sources include amounts received from Congressional appropriations to support its operations. A
financing source is recognized for these appropriated funds received.

Parent Child Reporting

ARC is a party to allocation transfers with other federal agencies as both a transferring (parent)
entity and receiving (child) entity. Allocation transfers are legal delegations by one department
of its authority to obligate budget authority and outlay funds to another department. A separate
fund account (allocation account) is created in the U.S. Treasury as a subset of the parent fund
account for tracking and reporting purposes. All allocation transfers of balances are credited to
this account, and subsequent obligations and outlays incurred by the child entity are charged to
this allocation account as they execute the delegated activity on behalf of the parent entity.
Generally, all financial activity related to these allocation transfers (e.g., budget authority,
obligations, outlays) is reported in the financial statements of the parent entity, from which the
underlying legislative authority, appropriations and budget apportionments are derived. ARC
allocates funds as the parent agency to the U.S. Department of Transportation, Housing and
Urban Development, as well as the Rural Development Agency, U.S. Army Corps of Engineers,
and the Economic Development Agency. Additionally, ARC receives allocation transfers, as the
child agency from the U.S. Department of Transportation to cover Appalachian Development
Highway System administrative costs.

Tax Exempt Status

As an agency of the federal government, ARC is exempt from all taxes imposed by any
governing body whether it is a federal, state, commonwealth, local, or foreign government.

Reclassifications

Certain items at September 30, 2009 have been reclassified to conform to the presentation at
September 30, 2010. There was no effect on the changes in net position.




                                                16
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

NOTE 2 – FUND BALANCE WITH TREASURY

ARC’s fund balance with treasury at September 30 consisted of the following:

    A. Fund Balances                                    2010                  2009
       Trust Fund                                      $2,360,000            $2,291,054
       Appropriated Funds                             166,092,534           159,638,228
       Total Entity Fund Balance with Treasury        168,452,535     *     161,929,282
        Non-Entity Fund Balance with Treasury             111,560                    38,304
        Total Fund Balance with Treasury              168,564,095           161,967,586

    B. Status of Fund Balance with Treasury
       1) Unobligated Balance
           a) Available                                27,745,316            26,925,233
           b) Unavailable                                  20,483             2,431,971 *
       2) Obligated Balance not yet Disbursed         140,686,735           132,572,078
       3) Non-Budgetary                                   111,560                38,304
       Total                                         $168,564,095 *        $161,967,586
        *Rounding


Non-entity assets consist of cash held for the Office of the State’s Representative.

NOTE 3 – ADVANCES

Advances at September 30 consist of the following:

                                                                    2010                  2009
    1. Intragovernmental
        Advances to the U.S. Army Corps of Engineers             $1,659,146             $1,302,962
        Advances to the Tennessee Valley Authority               12,097,464             10,876,517
        Advances to the Environmental Protection Agency                                    150,000
                                                                 13,756,610             12,329,479
    2. Other
        Advances to grantees to finance future program
        expenditures                                             34,932,837             29,767,568
        Total                                                    48,689,448      *     $42,097,047
    *Rounding




                                                17
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

NOTE 4 – LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The accrued liabilities of ARC are comprised of program expense accruals, payroll accruals and
unfunded annual leave earned by employees. Program expense accruals represent expenses that
were incurred prior to year-end but were not paid. Similarly, payroll accruals represent payroll
expenses that were incurred prior to year-end but were not paid. The table below details
liabilities by category and separates by liabilities covered and not covered by budgetary
resources.

Liabilities at September 30 consist of the following:

                                                                 2010              2009

  LIABILITIES NOT COVERED BY BUDGETARY RESCOURCES

  With the Public
      Unfunded annual leave                                      $474,172          $460,957
      Unfunded pension liability                                  870,581           700,075
  Intragovernmental
      Liability for Deposit Funds                                   75,984
  Total liabilities not covered by budgetary resources           1,420,737         1,161,032
  LIABILITIES COVERED BY BUDGETARY RESOURCES
  Advances
     Advances from the Centers for Disease Control                                   564,406
     Advances from the National Endowment for the Arts                                62,323
     Advances from the Appalachian Region States                    20,483
     Total Advances                                                 20,483           626,729
  Benefits Due
     Accrued health and flexible spending benefits                  87,323            87,323
     Accrued salaries and benefits                                 351,593           318,790
     Total benefits due                                            438,916           406,113

  Payments Due to grantees to finance program expenditure        4,063,127         3,460,229
  Other Agency Transactions                                         79,028            31,012
  Total liabilities covered by budgetary resources               4,601,555         4,524,083
  Total Liabilities                                             $6,022,292        $5,685,115




                                                18
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

NOTE 5 – OTHER LIABILITIES

Other liabilities with the public consist of Accrued Funded Payroll and Leave of $321,384;
Unfunded Leave in the amount of $474,172; Advances from Other – Public in the amount of
$20,483; Unfunded Pension Liability of $870,581; Accrued Health and Flexible Spending
Benefits of $87,323; and Other Agency Transactions of $79,028. Other Intragovernmental
liabilities consist of Liability for Deposit Funds of $75,984 and Employer Contributions and
Taxes Payable of $30,209.

               With the Public      Non-Current       Current         Total
      2010    Other Liabilities      1,531,587         321,384      $1,852,971
      2009    Other Liabilities      1,279,366         318,791      $1,598,157
              Intragovernmental     Non-Current       Current         Total
      2010    Other Liabilities         75,984          30,209        $106,193
      2009    Other Liabilities        626,729                0       $626,729

NOTE 6 – RETIREMENT PLANS

ARC has both federal and non-federal employees, who participate in different retirement plans.

Federal

ARC participates in the Civil Service Retirement System (CSRS) and the Federal Employees
Retirement System (FERS) for federal and certain non-federal employees. The CSRS and FERS
plans are administered by the OPM. ARC’s contributions to these plans for FY 2010 were
$22,256 and $91,504 for CSRS and FERS, respectively and contributions for FY 2009 were
$26,521 and $96,717 for CSRS and FERS, respectively.

Several employees also participate in the Federal Employees Health Benefit plan (FEHB) and
the Federal Employees Group Life Insurance program (FEGLI), also administered by OPM.
ARC pays a portion of the cost of current employees. Post-retirement benefits are paid by OPM.
No amounts have been recognized in the financial statements for these imputed costs as they are
not deemed material. ARC’s contributions to these plans for FY 2010 were $56,247 and $1,594
and for 2009 were $66,785 and $2,030 for FEHB and FEGLI, respectively.

ARC does not report in its financial statements CSRS, FERS, FEHB or FEGLI assets,
accumulated plan benefits or unfunded liabilities, if any, applicable to its employees.

ARC also contributed $37,206 and $36,864 to the Federal Thrift Savings plan for all eligible
employees for the years ended September 30, 2010 and 2009, respectively.




                                                19
                                 Appalachian Regional Commission
                                   Notes to Financial Statements
                                   September 30, 2010 and 2009

Non-Federal

The following table presents the pension benefit expense for the defined benefit pension plan by
component for fiscal years 2010 and 2009:

                                                                2010              2009
  Service cost                                                   $698,288         $536,183
  Interest cost                                                   758,355           705,990
  Expected return                                                (568,229)         (454,788)
  Amortization of prior service cost                              418,870           418,870
  Recognized loss                                                 434,546            67,132
  Net periodic benefit cost                                    $1,741,830        $1,273,387


The following table presents the pension liability by component for fiscal years 2010 and 2009:

                                                                 2010             2009
  Pension lability at October 1                                   $700,075       $1,576,063
  Net periodic benefit expense                                  $1,741,829        1,273,387
  Contributions                                                 (1,571,323)      (2,149,375)
  Pension lability at September 30                               $870,581         $700,075



                                                                 2010              2009
  Additional Information
  Benefit obligation                                         ($15,738,745)     ($13,814,271)
  Fair value of plan assets                                     9,361,327         7,077,988
  Funded status                                              ($6,377,418)      ($6,736,283)
  Employer contribution                                        $1,555,670        $2,129,249
  Participant contribution                                         15,653            20,126
  Benefits paid                                                    52,008         1,193,575
  Net periodic benefit expense                                  1,741,830         1,273,387


The accumulated benefit obligation was $13,834,127 and $11,881,525 at September 30, 2010
and 2009, respectively.




                                               20
                                Appalachian Regional Commission
                                  Notes to Financial Statements
                                  September 30, 2010 and 2009

Weighted-average of economic assumptions used to determine benefit obligations at September
30:

                                                                    2010               2009
  Discount rate                                                        5.20%              5.50%
  Rate of compensation increase                                        3.00%              3.00%

Weighted-average of economic assumptions used to determine net periodic benefit cost for the
years ended September 30:

                                                                    2010               2009
  Discount rate                                                        5.50%              7.00%
  Expected return on plan assets                                       7.25%              7.25%
  Rate of compensation increase                                        3.00%              3.00%

Historical returns of multiple asset classes were analyzed to develop a risk-free real rate of return
and risk premiums for each asset class. The overall rate for each asset class was developed by
combining a long-term inflation component, the risk-free real rate of return, and the associated
risk premium. A weighted-average rate was developed based on those overall rates and the target
asset allocation plan.

Plan Assets

Pension plan weighted-average asset allocations at September 30 are as follows:

                                                                    2010               2009
  Asset Category
  Cash                                                                 13.04%            16.00%
  Debt securities                                                      33.62%            32.00%
  Equity securities                                                    51.19%            47.00%
  Real estate                                                           2.15%             5.00%
  Total assets                                                       100.00%            100.00%




                                                 21
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

The following benefit payments, which reflect expected future service, as appropriate, are
expected to be paid:

                            Fiscal Year               Amount
                               2011                    6,012,967
                               2012                    1,969,648
                               2013                       21,772
                               2014                      725,165
                               2015                    2,940,384
                          Years 2016-2020              5,660,682


ARC contributed $209,937 and $198,037 to the 401(k) plan for the years ended September 30,
2010 and 2009, respectively.

NOTE 7 –LEASES

Description of leasing arrangements: ARC has an operating lease for its office space at 1666
Connecticut Avenue, NW, Suite 700, Washington, DC that commenced on January 1, 2007 and
extends through December 31, 2016.

The future minimum lease payments required under this lease are as follows:

                             Fiscal Year              Amount
                                2011                     963,086
                                2012                     901,520
                                2013                     926,607
                                2014                     945,139
                                2015                     964,042
                             Thereafter                1,230,365
                                Total                 $5,930,759

Actual expenses may vary in future years due to real estate tax and operating cost increases.

Rent expense for the years ended September 30, 2010 and 2009 was $844,495 and $827,015,
respectively.

Additionally, ARC entered a 39 month operating lease for copier equipment on 6/24/2010 at a
cost of $664 per month with an additional maintenance cost for photocopies in excess of 15,000
per month at .0091 per photocopy.




                                                22
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009


NOTE 8 – EARMARKED FUND

Earmarked funds are funds that are financed by specifically identified revenues, often
supplemented by other financing sources, which remain available over time. These specifically
identified revenues and other financing sources are required by statute to be used for designated
activities or purposes, and must be accounted for separately from the federal government’s
general revenues, per Statement of Federal Financial Accounting Standard (SFFAS) 27,
Identifying and Reporting Earmarked Funds.

The source of earmarked funds is the federal contribution for half of the administrative costs of
ARC. The funds are deposited into a Trust Fund (TAFS 46X8090), established by the U.S.
Treasury under the authority of the Appalachian Regional Development Act of 1965, to receive,
hold, invest, and disburse monies collected to cover the administrative expenses of ARC. The 13
member states also contribute for half of the administrative costs of ARC, which are recorded as
earned revenues on the Statement of Net Cost, but not as an earmark.




                                                23
                                   Appalachian Regional Commission
                                     Notes to Financial Statements
                                     September 30, 2010 and 2009

Condensed financial information for the ARC trust fund for the years ended September 30 is:

                                                        2010             2009
Balance Sheet
ASSETS
Fund Balance with Treasury                     $        2,360,000    $   2,291,054
Cash in Commercial Institutions                            79,028           31,012
  Total Assets                                 $        2,439,029    $   2,322,066

LIABILITIES AND NET POSITION
  Intragovernmental
      Other Liabilities                                   15,835
Total Intragovernmental                        $          15,835     $

  With the Public
      Accounts Payable                                     50,725           41,219
      Other Liabilities                                 1,528,868        1,299,491
Total With the Public                                   1,579,593        1,340,710

Total Liabilities                              $        1,595,427    $   1,340,710

Cumulative Results of Operations                         843,602          981,356
Total Net Position                                       843,602          981,356

  Total Liabilities and Net Position           $        2,439,029    $   2,322,066

Statement of Net Cost
Gross Program Costs                            $        8,095,753    $   6,145,275
Less Earned Revenues                                    3,979,000        3,762,977
Net Program Costs                              $        4,116,753    $   2,382,298
Net Cost of Operations                         $        4,116,753    $   2,382,298

Statement of Changes in Net Position
Net Position Beginning of Period               $         981,354     $   (398,346)

Transfers In/Out Without Reimbursement                  3,979,000        3,762,000
Total Financing Sources                                 3,979,000        3,762,000
Net Cost of Operations                         $        4,116,753    $   2,382,298
Net Change                                     $         (137,753)   $   1,379,702
Cumulative Results of Operations               $          843,602    $     981,356




                                                   24
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

NOTE 9 – INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs are those of goods/services purchased from a federal entity. Costs with
the Public are incurred from exchange transactions with non-Federal entities (i.e., all other
program costs). The table below presents ARC’s program costs related to Intragovernmental
Costs and Costs with the Public.

                                                       Total              Total
                                                       2010               2009
    Program A
        Intragovernmental costs                       5,430,261          4,848,058
        Public costs                                 63,307,861         66,789,967
             Total Program A costs                   68,738,122         71,638,025
         Intragovernmental earned revenue             1,541,729                  0
         Public earned revenue                        3,979,000          3,788,282
              Total Program A earned revenue          5,520,729          3,788,282
                 Total Program A Net Costs           63,217,393         67,849,743


NOTE 10 – STATUS OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred

Apportionment is a plan, approved by the U.S. Office of Management and Budget (OMB), to
spend resources provided by one of the annual appropriations acts, a supplemental appropriations
act, a continuing resolution, or a permanent law (mandatory appropriations). Resources are
apportioned by Treasury Appropriation Fund Symbol (TAFS). The apportionment identifies
amounts available for obligation and expenditure. It specifies and limits the obligations that may
be incurred and expenditures made (or makes other limitations, as appropriate) for specified time
periods, programs, activities, projects, objects, or any combination thereof. An apportioned
amount may be further subdivided by an agency into allotments, suballotments, and allocations.

OMB Circular A-11 defines apportionment categories as follows:
  • Category A apportionments distribute budgetary resources by fiscal quarters.
  • Category B apportionments typically distribute budgetary resources by activities,
     projects, objects or a combination of these categories.
  • Category C apportionments may be used in multi-year and no-year TAFS to apportion
     funds into future fiscal years.
  • Exempt – Exempt from apportionment (see OMB Circular A-11, paragraph 120.8 for
     details).




                                               25
                               Appalachian Regional Commission
                                 Notes to Financial Statements
                                 September 30, 2010 and 2009

Obligations incurred reported on the Statement of Budgetary Resources consist of the following:

                                           2010              2009
    Direct Obligations
       Category A                          1,932,648        2,010,806
       Category B                         78,020,651       82,937,649
       Exempt                             12,035,458        7,247,703
    Total direct obligations              91,988,758 *     92,196,158
    *Rounding


B. Permanent Indefinite Appropriations

The Commission’s permanent indefinite appropriation includes the trust fund. These funds are
described in Note 8.

C. Explanation of Differences between the Statement of Budgetary Resources and the Budget of
the U.S. Government

Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, calls for
explanations of material differences between amounts reported in the Statement of Budgetary
Resources (SBR) and the actual balances published in the Budget of the U.S. Government
(President’s Budget). The Budget of the U. S. Government, with the Actual column completed
for 2009 and 2008, was reconciled to the Statement of Budgetary resources as follows:

                                                             2009
                                                                          d
                                          Budgetary    Obligations    Offsetting    Net
  (Dollars in Millions)                   Resources     Incurred      Receipts     Outlays
  Statement of Budgetary Resources          $121               $92            $7      $68
  Reconciling Items
    Offsetting collections and receipts     (10)               (9)           (6)       1
  Budget of the U.S. Government             $111              $83            $1       $69


                                                               2008
                                                                          d
                                          Budgetary    Obligations    Offsetting    Net
  (Dollars in Millions)                   Resources     Incurred      Receipts     Outlays
  Statement of Budgetary Resources          $115               $86            $4      $76
  Reconciling Items
    Offsetting collections and receipts      (1)               2             (2)       5
  Budget of the U.S. Government             $114              $88            $2       $81


                                                  26
                              Appalachian Regional Commission
                                Notes to Financial Statements
                                September 30, 2010 and 2009

NOTE 11 – UNDELIVERED ORDERS AT THE END OF THE PERIOD

Undelivered orders represent the value of goods and services ordered and obligated that have not
been received. This amount includes any orders for which advance payment has been made but
for which delivery or performance has not yet occurred. Management seeks to synchronize
periods of performance on contracts and agreements with the fiscal year to minimize undelivered
orders at year-end.

The amount of Unpaid Obligated Balance, Net, End of Period shown on the Statement of
Budgetary Resources includes obligations relating to Undelivered Orders and Delivered Orders,
Obligations Unpaid (amounts owed at the end of the year by the ARC for goods and services
received plus unfunded leave presented in Note 4). The amount of each is as follows:

                                     Delivered Orders,
                                       Obligations
             Undelivered Orders           Unpaid           Unpaid Obl. Balance, Net
   2010        $136,290,889            $4,395,846              $140,686,735
   2009        $128,831,106            $3,740,972              $132,572,078




                                              27
                                              Appalachian Regional Commission
                                                Notes to Financial Statements
                                                September 30, 2010 and 2009

    NOTE 12 – RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY)
    TO BUDGET (FORMERLY THE STATEMENT OF FINANCING)

                                                                                   2010           2009

Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                         $ 91,988,758   $ 92,196,158
    Less: Spending Authority from Offsetting Collections
       and Recoveries                                                              6,439,353     10,232,419
Obligations Net of Offsetting Collections and Recoveries                          85,549,405     81,963,739
Less: Distributed Offsetting Receipts                                              7,958,000      7,550,281
    Net Obligations                                                               77,591,405     74,413,458

Other Resources
   Imputed Financing from Costs Absorbed by Others                                  117,143         103,564
Net Other Resources Used to Finance Activities                                      117,143         103,564

Total Resources Used to Finance Activities                                        77,708,548     74,517,022

Resources Used to Finance Items not Part of the Net Cost of Operations
Change in Budgetary Resources Obligated for Goods
   Services and Benefits Ordered But Not Yet Provided                             14,658,429      8,189,113
Resources That Fund Expenses Recognized in Prior Periods                                            963,604
Total Resources Used to Finance Items Not Part of the Net Cost
  of Operations                                                                   14,658,429      9,152,717

Total Resources Used to Finance the Net Cost of Operations                        63,050,118     65,364,305

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in Annual Leave Liability                                                (3,231)
   Other (+/-)                                                                      170,506          20,776
Total Components of Net Cost of Operations that will Require or Generate            167,275          20,776
Resources in Future Periods

Components Not Requiring or Generating Resources:
Reconciling Items:
   4902 adjustments                                                                               2,351,388
   Other                                                                                            113,274
Total Components of Net Cost of Operations that will not Require or Generate
Resources                                                                                         2,464,662
Total Components of Net Cost of Operations that will not Require or Generate
Resources in the Current Period                                                      167,275      2,485,438
Net Cost of Operations                                                          $ 63,217,393   $ 67,849,743
*Amounts may be off by a dollar due to rounding.




                                                            28
                              Appalachian Regional Commission
                                Notes to Financial Statements
                                September 30, 2010 and 2009

NOTE 13 – SUBSEQUENT EVENTS

ARC has evaluated subsequent events occurring after the balance sheet date and through the date
of February 25, 2011, the date the financial statements were available for release. Based upon
this evaluation, ARC has determined that no subsequent events have occurred which require
disclosure in the financial statements.




                                              29
                APPENDIX A –

APPALACHIAN REGIONAL COMMISSION COMMENTS ON

            DRAFT AUDIT REPORT
